                              U.S. Small Business Administration
                                    Washington, D.C. 20416




     OFFICE OF
INSPECTOR GENERAL



May 24, 2004

TO:          Ronald E. Bew
             Deputy Associate Administrator
             Office of Capital Access

FROM:        Harold Damelin       /s/ Original signed
             Inspector General

SUBJECT: New Management Challenge on The SBIC Program, Report #4-21

We are submitting a new management challenge on the Small Business Investment Company
(SBIC) program under the report title The SBIC Program: At Risk for Significant Losses.
This challenge provides a concise statement of the problems that have been identified in past
General Accounting Office and Office of Inspector General (OIG) reports, and in the Program
Assessment Rating Tool (PART) assessment recently released by the Office of Management
and Budget. One of the most important challenges facing the Small Business Administration
today is that the current structure and oversight practices of the SBIC program place too much
risk on taxpayer money.

In accordance with the Reports Consolidation Act of 2000, this challenge will be incorporated
with other Agency challenges in our Report on the Most Serious Management Challenges
Facing the Small Business Administration in Fiscal Year (FY) 2005. The complete FY 2005
report will be included in SBA’s annual Performance and Accountability Report this fall.
Meanwhile, following OIG practice, the SBIC challenge report will be available shortly on our
Website http://www.sba.gov/IG/.

We appreciate the assistance you provided on this important issue.




Attachment
U.S. Small Business Administration


Office of Inspector General
Inspection and Evaluation Division




           THE SBIC PROGRAM:
     AT SIGNIFICANT RISK FOR LOSSES


                       May 24, 2004


                       Report No. 4 -21
                 TABLE OF CONTENTS

                                               Page

Challenge…………………………………………………………………………………… 1

Additional Information………………………………………………………………………2

Appendix…………………………………………………………………………………….4
Challenge: The current structure and oversight practices of the Small Business
Investment Company (SBIC) program place too much risk on taxpayer money.

It has been estimated by SBIC program officials that, given the rapidly mounting losses in the portfolio,
the cumulative cost of the program to the Federal Government is projected to be almost $2 billion on an
outstanding portfolio of $5 billion. Although the venture capital industry is designed to assume
substantial risk in support of new and growing businesses, the structure of the SBIC program and funding
process has contributed significantly to losses in recent years. SBA’s “profits” are not proportional to the
investment that the agency makes in SBICs, and insufficient incentives exist to encourage SBICs to pay
back principal debt to SBA as quickly as possible . Moreover, the subsidy model underestimates the cost
of the program, with the technical assumptions more optimistic than actual performance.

Over the last 10 to 15 years, the General Accounting Office (GAO) and the OIG have found that SBA’s
policy of allowing extensive time for financially troubled SBICs to attempt rehabilitation has allowed
SBIC assets to decrease and reduced SBA’s potential for recovery. SBA’s policy of allowing capitally-
impaired SBICs to charge significant management fees and the way SBA applies distributable gains from
SBICs also contribute to program losses. The standard operating procedure (SOP) for the SBIC program
has not been revised since March 1989 and existing guidance does not provide a systematic approach for
estimating the level of financial risk, ensuring the implementation of restrictive operations, transferring
capitally impaired SBICs to liquidation status, or liquidating SBICs receiving participating securities.

According to program officials, actions are being taken which will strengthen the assessment and
management of financial and regulatory risks inherent in the program. A new SOP is in the clearance
process. SBA has also submitted a legislative proposal to Congress to increase its fees and share of profit
earnings. Although such legislation would be helpful, the Agency should act to limit program losses
without waiting for legislative revisions. For example , capitally impaired participating securities SBICs
that have been transferred to liquidation are not being liquidated. To improve the program’s ability to
limit risk and prevent major avoidable program losses, officials should pursue legis lative reforms and act
in a timely manner in dealing with and liquidating capitally impaired SBICs.


                                      Actions Needed                                            Progress

Revise the subsidy model estimation methodology to develop more realistic technical                Red
assumptions and try to capture more accurately fluctuations in the economy.
Submit and pursue legislative proposals that will more effectively protect the Federal           Yellow
Government’s financial interest, by appropriately increasing fees and SBA’s share of profit
earnings, and by placing SBA in a more favorable position for maximizing recoveries.
Develop and implement management fee policies that will slow the erosion of assets of            Yellow
capitally impaired SBICs.
Provide documented analysis justifying the need for the: (i) concept of forbearance,               Red
 (ii) forbearance periods, and (iii) capital impairment percentages.
Implement more systematic criteria and a more timely approach for transfers to liquidation.      Yellow
Develop and implement a control process for liquidating participating securities.                 Red
Include in a revised SOP the items recommended in the OIG’s FY 2003 SBIC audit to                Yellow
• perform and document quarterly risk assessments, including an analysis of repayment            Yellow
      potential, and recommended actions.
• ensure the timely and consistent implementation of restrictive operations.                     Yellow
Green-Implemented Yellow-Progress being made Red-Not implemented/no substantial progress
Additional Information

Because this is a newly issued challenge, the following information is being included to further illustrate
the issues involved.

•   The venture capital industry runs in cycles and is structured to assume substantial risk in support of
    new and growing businesses. In recent years there has been a significant downturn in the venture
    capital industry. The structure of the SBIC funding process for participating securities and the quality
    of SBA oversight have contributed significantly to the losses in the SBIC program in recent years.

•   Program Structure and Design: SBICs using participating securities comprise the largest portion of
    private capital and program leverage. For these SBICs, SBA guarantees the funds and the SBICs can
    spend the funding over a period of 10 years. If the SBIC has losses and ceases operations, SBA may
    receive nothing. The Office of Management and Budget (OMB) Program Assessment Rating Tool
    (PART) assessment points out significant design flaws in the participating securities program. SBA’s
    “profits” are not proportional to the investment that the Federal Government makes in SBICs. The
    Agency invests up to two-thirds of total funds and receives only about 10 percent of an SBIC's profits
    which is generally insufficient to fully repay the original principal investment. There are insufficient
    incentives to encourage SBICs to pay back principal debt to SBA expeditiously. In addition, SBA
    currently applies the distributable gains from an SBIC first to profit participation as opposed to
    redemption of leverage. This allows SBA to show profit participation from an SBIC that may
    eventually not repay all the outstanding leverage and therefore distort program results. The program
    will show positive short-term results when the long-term prognosis is negative. Moreover, a
    distribution ratio that is favorable to SBA would help mitigate the Agency’s risk of loss.

•   The SBIC debenture program also has had large losses. In addition, the subsidy model
    underestimates the cost of the program, with the technical assumptions more optimistic than actual
    performance.

•   General partners or managing members charge management fees to the SBICs. According to
    Investment Division officials, until recently this generally amounted to roughly 7.5% of private
    capital in one year. Because capital impairment is based upon private capital, even assuming that a
    fund has no other expenses and incurs no portfolio losses, after five years in business, the capital
    impairment percentage based solely upon payment of the management fee could exceed 37 percent.
    In 2003 changes were made in the management fee policy for new licensees. The changes occurred
    after the last audit and should be examined.

•   Oversight and Follow-up: As a result of OIG and GAO recommendations, over the last 10 to 15
    years SBIC oversight and follow up have been improved but serious problems remain. In a series of
    reports on SBIC management and oversight in the mid-1990s, the GAO found that SBA’s oversight
    was “clearly inadequate.” Although SBA responded to GAO’s critiques by increasing the frequency
    of its SBIC examinations, GAO later reported that SBA did not have “a risk-based oversight strategy
    for targeting its limited oversight resources to periods that pose the greatest risk of losses to the
    government.” Program officials report they have now developed a risk-based oversight strategy.
    Because it was developed after the last OIG audit, it has not yet been evaluated.

•   Although quarterly analyses are conducted by SBA to assess the Agency's level of risk in the SBIC
    program, analysts are not required by existing operating procedures to identify either the SBIC’s
    potential for repayment of the outstanding leverage or actions that SBA should take such as




                                                     2
    transferring the SBIC to liquidation status. Proposed changes to the SBIC Operations SOP will
    include these requirements.

•   In 1993, the OIG found that delays in pla cing financially troubled SBICs in liquidation reduced the
    potential recovery of government funds In 1995, the GAO reported that there was no evidence that
    SBA’s policy of allowing extensive time to rehabilitate financially troubled firms resulted in financial
    improvements to the firms, but instead gave firms additional time to sell off assets. Eight years later
    in 2003, an OIG audit found that the asset value of the sample of 23 capitally impaired SBICs
    reviewed continued to decline during the time program management hesitated in transferring them to
    liquidation status. This erosion resulted from sales, charge-offs, re-evaluations of the licensees’
    portfolio holdings and the operating costs of the SBICs. Moreover, SBA paid about $13 million in
    unnecessary prioritized payments as a result of these untimely liquidation actions.

•   A major obstacle to SBA’s ability to limit risk has been the “forbearance concept” which, per Agency
    regulations, precludes SBA from considering SBICs as being capitally impaired for up to eight years
    after receiving their participating securities. Even though requested, program officials have not
    provided the OIG with analyses supporting the capital impairment decision points of 85 and 100
    percent. Prior to the OIG's audit of SBIC Oversight, because of SBA's interpretation of the
    forbearance rule, no participating securities SBIC was transferred to liquidation status as a result of its
    capital impairment. Proposed SOP changes provide a systematic approach to transferring troubled
    SBICs to liquidation status. Twenty-four participating securities have now been transferred to
    liquidation. Nevertheless, liquidation methods are not being chosen and 22 participating securities
    SBICs have been in liquidation status for at least 12 months without liquidation procedures having
    begun.

•   The SOP for the SBIC Operations has not been revised since March 1989 and the SOP for SBIC
    Liquidations has not been revised since Dec 1998. Periodically issued technical notes have served as
    interim but inadequate guidance. The SOP for Operations is currently under revision and, when
    issued, should address some of the OIG’s concerns. The SOP for Liquidations is not under revision
    even though it does not address participating security SBICs.

•   Because the SBIC program is a zero subsidy program, accumulated program losses could result in
    significant increases in the fees to current and future SBICs. If SBICs pass on the increases to small
    business concerns, the latter may be discouraged from using the program. Fee increases may also
    cause the number of applications by potential SBICs to decline and force SBICs to leave the program
    early. These developments would reduce the amount of venture capital available to small business
    concerns.

•   Program Improvements: In response to the OIG’s 2003 audit recommendations, program
    management pointed to previous program improvements, such as developing stringent new licensing
    regulations and standards. Officials also cited new initiatives which include: an annual report that
    “will begin to clarify and quantify the potential risks and rewards of taxpayers’ ‘participation’ in the
    SBIC program;” a “more robust portfolio risk rating model to replace the current system of
    monitoring funds under financial strain;” a reorganization of the Office of SBIC Operations; and a
    more aggressive resolution of cases and the creation of better incentives for management of SBICs in
    receiverships. SBA has also submitted a legislative proposal to increase its fees and share of profit
    earnings.

NOTE: The SBIC examination function has not been reviewed since the 1995 GAO report and is
scheduled to be competitively sourced. Currently, the OIG is conducting an audit of the liquidation
function.


                                                      3
                                   Appendix 1: Relevant Reports

Most SBA OIG reports listed can be found at: www.sba.gov/ig/igreadingroom.html. GAO
reports are located on the GAO Website at: http://www.gao.gov/.


•   OMB, Small Business Administration: PART Assessment on the SBIC Program, February 2, 2004.
•   SBA OIG FY 2003 Financial Statement Audit in the SBA FY 2003Performance and Accountability Report,
    January 30, 2004, pp. 230-60.
•   SBA OIG, Audit of SBIC Oversight, Report # 3-33, Ju ly 1, 2003.
•   GAO, Small Business: Update on SBA’s Small Business Investment Company Program, Report # GAO/RCED-
    97-55, February 1997.
•   GAO, Small Business Administration: SBA Monitoring Problems Identified in Case Studies of 12 SBICs and
    SSBICs, Report # GAO/ OSI-96-3, April 1996.
•   GAO, Small Business Administration: Better Oversight of SBIC Programs Could Reduce Federal Losses,
    Report # GAO/T-RCED -95-285, September 28, 1995.
•   GAO, Small Business Administration: Inadequate Oversight of Capital Management Services, Inc.-An SSBIC,
    Report # GAO/T-OSI-95-19, August 7, 1995.
•   GAO, Small Business Administration: Prohibited Practices and Inadequate Oversight in SBIC and SSBIC
    Programs, GAO/OSI-95-16, May 28, 1995.
•   GAO, Small Business Administration: Inadequate Oversight of Capital Management Services, Inc.-An SSBIC,
    Report # GAO/OSI-94-23, March 1994.
•   OIG, Audit Report on the Small Business Investment Company (SBIC) Liquidation Function, Report # 3-2-E-
    004-031, March 31, 1993.




                                                     4
